APPLICATION AND
SOLICITATION
DISCLOSURE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Mastercard Standard

3.99%

Introductory APR for a period of six billing cycles.

7.75% to 17.95%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Rewards

10.15% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard World Card

12.99% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Mastercard Standard
3.99% Introductory APR for a period of six billing cycles.
After that, your APR will be 7.75% to 17.95%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Rewards
10.15% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard World Card
12.99% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04501990-MXC10-P-1-051820 (MXC101-E)

APR for Cash Advances

Mastercard Standard
7.75% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Rewards
10.15% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard World Card
12.99% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

Penalty APR and When it Applies

Mastercard Standard
17.95%
Mastercard Rewards
17.95%
Mastercard World Card
17.95%
This APR may be applied to your account if you:
- Make a late payment.
How Long Will the Penalty APR Apply? If your APRs are increased for
this reason, the Penalty APR will apply until you make six consecutive
minimum payments when due.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

1.00% of each transaction in U.S. dollars
Up to $28.00
Up to $28.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Mastercard Standard:
The Introductory APR for purchases and balance transfers will apply to transactions posted to your account during the first
six billing cycles following issuance of your card. Any existing balances on 1st Advantage Federal Credit Union loan or
credit card accounts are not eligible for the Introductory APR for balance transfers.
Loss of Introductory APR:
We may end your Introductory APR for purchases and balance transfers and apply the prevailing non-introductory APR if
you are 60 days late in making a payment.
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making a payment.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04501990-MXC10-P-1-051820 (MXC101-E)

Effective Date:
The information about the costs of the card described in this application is accurate as of: 6/1/2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Mastercard Standard, Mastercard Rewards and Mastercard World Card are secured
credit cards. Credit extended under this credit card account is secured by various personal property and money
including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically
pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or
joint account with the Credit Union excluding shares in an Individual Retirement Account or in any other account
that would lose special tax treatment under state or federal law, and (d) collateral securing other loans you have
with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that
during any periods when you are a covered borrower under the Military Lending Act your credit card will be
secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in any
individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you
establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
Other Fees & Disclosures:
Late Payment Fee:
$28.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment.
Returned Payment Fee:
$28.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$5.00.
Rush Fee:
$15.00 overnight.
Statement Copy Fee:
$3.00 per document.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04501990-MXC10-P-1-051820 (MXC101-E)

